2311 Douglas Street
Omaha, Nebraska 68102-1214

COCKLE

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850
No.
BRITTANY BILLETS, et al.,
Petitioners,
v.
MENTOR WORLDWIDE LLC,
Respondent.

CERTIFICATE OF COMPLIANCE

Legal Briefs

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court

Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 8931 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 6th day of July, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Nebraska
RENEE J. GOSS 9.
My Comm. Exp. September 5, 2023

Notary Public

Queda. Gh le

Affiant 41121
